HHS/OIG, Audit - "Review of Hospital Patient Transfer Paid as Discharges and Claimed Improperly Under the Indiana Medicaid Program," (A-05-02-00041)
Department
of Health and Human Services
"Review of Hospital Patient Transfers Paid as Discharges and Claimed
Improperly Under the Indiana Medicaid Program," (A-05-02-00041)
January 22, 2003
Complete Text of Report is available in PDF format
(375 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether inpatient hospital claims
for patients transferred from one hospital and admitted to another hospital
on the same day were properly coded and paid in accordance with Indiana's Medicaid
reimbursement methodology.
The medical records confirmed that 97 of the 127 claims reviewed were transfers
improperly coded as discharges.  Transferring hospitals are reimbursed
a diagnosis related group (DRG) pro-rated daily rate for each day, not to exceed
the full DRG amount.  The Office of Medicaid Policy and Planning (OMPP)
claims processing system does not have edits to identify transfers between hospitals,
which are erroneously coded as discharges and claimed for the full DRG payment.
Based on pricing data provided by OMPP, there were overpayments of $758,681
attributed to 92 of the hospital claims.  Although coded incorrectly as
discharges, the payment methodology for the remaining 5 claims did not result
in an overpayment.  Subsequently analysis performed by OMPP resulted in
lowering the overpayment amount to $739,061.  We have reviewed the logical
supporting the adjustments and concur with the revised results.